CERTIFICATE OF COMPLIANCE
No. 20-1263
GIANINNA GALLARDO, AN INCAPACITATED PERSON, BY
AND THROUGH HER PARENTS AND CO-GUARDIANS PILAR
VASSALLO AND WALTER GALLARDO,

Petitioner,
V.

SIMONE MARSTILLER, IN HER OFFICIAL CAPACITY AS
SECRETARY OF THE FLORIDA AGENCY FOR HEALTH
CARE ADMINISTRATION,

Respondent.
As required by Supreme Court Rule 33.l(h), I certify that petitioner's reply
contains 1,245 words, excluding the parts of the reply that are exempted by Supreme
Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 7, 2021.

Counsel fo etitioner
CREED & GOWDY, P.A.
865 May Street
JACKSONVILLE, FL 32204

(904) 350-007 5

bgowdy@appellate-firm.com

